                           U.S. DEPARTMENT OF EDUCATION
                                 OFFICE OF INSPECTOR GENERAL
                                      75 Park Place, 12th Floo r
                                     New York, New York 10007



                                                    MAR 28 2003



                                                                                                          Control Number
                                                                                                    ED·OTG/A02-D0005

Mr. Wendell Knox
President and Chief Executive Officer
c/o Mr. Nicholas Piccirillo
Director of Compliance and Internal Aud it
Abt Associates Inc,
55 Wheeler Street
Cambridge, MA 02 138

Dear Mr. Picciri llo:

This Final Audit Report presents the results of our audit of a contract between Abt
Associates Inc. (A bt) and the U. S. Department of Education (ED) fo r the Reading
Excellence Ac/ School and Classroom Implementation and Impact Study. The objective
of ou r audit was to determine whether costs claimed and products andlor services
provided from the period September 19, 2000, through November 20, 2002, were in
accordance with the tenus of the contract and applicable federal laws andlor regulations.

                                                      Background

Abt provides research based services fo r businesses and governments. Abt's clients
include federal, slate, and fo reign governments, international companies, fi nancial
services, healthcare, pharmaceutical, biotechnology, teleconununications, and
agribusi ness industries. Abt currentl y has seven contracts with ED totaling
approximately $23 million.

Abt's contract with ED's Office of the Undersecretary for.the Reading Excellence Act
School and Classroom fmplemenlation and fmpact Study, (contract number
EDOOC00090), is for the period Se ptember 19,2000, through September 30, 2005. The
aggregate amount of the contract was ini tially $11.2 million. However, the contract had a
major modification effecti ve September 26, 2002, that reduced the contract amount to
$2.6 mill ion. The modification was based on ED's foc us on the Reading First progranl
and lhe phase out of the Reading Excellence Act. ED has paid Abt $ 1,475,757 through
November 20, 2002 fo r the contract, including $25,000 for incentive fees.



       Our nris.Jion is 10 ensure equal QCCes.J 10 education and /0 promote educatiollal excellence /hrougho/lt/he Nation.
Abt Associates, Inc.
ED-OIG/A02-D0005

                                      Audit Results

We concluded that costs claimed, based on our sample, and products provided during the
audited contract period were in accordance with the terms of the contract and applicable
Federal laws andlor regulations.

                          Objective, Scope, and Methodology

The objective of our audit was to detennine whether costs claimed and products and/or
services provided for the period of September 19, 2000, through November 20, 2002,
were in accordance wi Lh the tenns of the contract and applicable Federal laws and/or
regulations.

To accomplish our audit objective. we reviewed the population of25 public vouchers,
and randomly selected three public vouchers for testing. These three vouchers
represented 10 percent of the total amount of the contract invoiced. For these three
vouchers, we tested costs associated with labor, travel, consultants, subcontractors,
computer networking costs, and communication charges. We also judgmentally selected
three additional public vouchers for testing of subcontractor fees. This judgmental
sample was based on the last three public vouchers submitted. We verified that indirect
cost rates were appropriately appli ed to the applicable bases. In addition , we tested to
ensure deliverable dates associated with the contract were met. We reviewed Abt's
Finance and Accounting Policies and Procedures Manual regarding subcontract
monitoring, internal audit, bidding procedures, and billing procedures. We also
conducted interviews of Abt, Defense Contract Audit Agency (DCAA), the
Environmental Protection Agency, and ED officials. To meet audit objective we did not
use electronic data from Abt or ED.

We perfonned on-site fieldwork at Abt's headquarters in Cambridge, Massachusetts from
January 9, 2003, through January 23, 2003. We held an exit conference on February 12,
2003. Our audit was performed in accordance with generally accepted government
auditing standards appropriate to the scope of the review described above.

                         Statement on Management Controls

We did not assess the adequacy of Abt's management control structure. Rather, we relied
on information from DCAA, our review of Abl's policies and procedures, and our testing
of three public vouchers. DCAA stated that as of their most recent review, Abt's
accounting system's ability to accumulate costs for government contracts and its internal
control system are adequate. We reviewed Abt's Finance and Accounting Policies and
Procedures Manual to gain assurance that Abt's policies and procedures were being
fo llowed. Our testing disclosed no instances of noncompliance that led us to believe a
material weakness existed in Abt's controls for this contract.




                                            2
Abt Associates, Inc.
ED-O IG/A02-D0005

                                 Administrative Matters

Since there are no findings that require resolution, you are not required to respond to this
audit report. However, if yo u wish to comment on any items in this report, please contact
the following person directly:

               Charles Miller
               Director
               Financial Improvement & Post Audit Operations
               U.S. Department of Education
               Office of the Chief Financial Officer
               400 Maryland Ave, SW, Room 4Cl35
               Washington, D.C. 20202

In accordance with the Freedom oflnformation Act (5 V.S.C § 552), reports issued by
the Office of Inspector General are avai lable, if requested, to the members of the press
and genera l public to the extent infomlation contained therein is not subject to
exemptions in the Act

We appreciate the cooperation and assistance extended by your stafT during the audit. If
you have any questions or if you wish to discuss the contents of this report, please contact
me at (212) 637-6271. Please refe r to the control number in all correspondence related to
the report.

                                              Sincerely,




                                              Dan iel P. Schultz
                                              Regional Inspector General for Audit


cc: electronic copies
        Hugh Walkup, Director, Planning and Perfonnance Management Service
        C. Todd Jones, Associate Deputy Secretary, Office of the Deputy Secretary
        John Danielson, Chief of Staff
        Eugene Hickok, Under Secretary
        John Gibbons, Director, Communications
        Jack Martin, Chief Financial Officer
        Cynthia Bond-Butler, Contracts and Purchasing Operations
        Clay Boothby, Acting AS, Legislation and Congressional Affairs
        Lauri e M. Rich, AS, Intergovernmental and Interagency Affairs
        Carolyn Adams, OGC (Correspondence Control)
        L'Wanda Rosemond, Genera l Operations Team
        Headquarters and Regional Audit Managers


                                             3
